Case: 17-16491, 07/11/2019, ID: 11360154, DktEntry: 59, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL 11 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ARIZONA LIBERTARIAN PARTY;
MICHAEL KIELSKY,
Plaintiffs-Appellants,

No.

17-16491

D.C. No. 2:16-cv-01019-DGC
District of Arizona,
Phoenix

v.
ORDER
KATIE HOBBS, in her official capacity as
Secretary of State of Arizona,
Defendant-Appellee.
Before: WALLACE, TASHIMA, and McKEOWN, Circuit Judges.
The panel votes to deny the petition for rehearing.
The full court has been advised of the petition for rehearing and rehearing en
banc and no judge has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35. The petition for panel rehearing and the petition for rehearing
en banc are denied.

